!*j4

No.

IN THE SUPREME COURT OF THE UNITED STATES

JOHN CHING EN LEE
Petitioner
v.

UNITED STATES OF AMERICA
Respondent

CERTIFICATE OF COMPLIANCE

I, John Ching En Lee, hereby certify that the accompanying Petition for Writ of
Certiorari in John Ching En Lee v. United States of America, complies with the
page count limitation of Supreme Court Rule 33.2, in that it contains 18 pages,
excluding material not required to be counted by Rule 33.1(d). I declare under
penalty of perjury the foregoing is true and correct.
DATED this 8th Day of March 2021.

3mm Cning En Lee
^Petitioner
21

